 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


  HEALTHNOW NEW YORK, INC.,
UNDERSTATED ITS MEDICARE PART B
  SEGMENT PENSION ASSETS AND
UNDERSTATED MEDICARE’S SHARE OF
 THE MEDICARE SEGMENT EXCESS
    PENSION LIABILITIES AS OF
        JANUARY 1, 2009
   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Patrick J. Cogley
                                                Regional Inspector General

                                                       October 2013
                                                       A-07-13-00425
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                at https://oig.hhs.gov/

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 HealthNow, a terminated Medicare contractor, understated the Medicare segment pension
 assets by approximately $303,000 as of January 1, 2009. In addition, HealthNow
 understated Medicare’s share of the excess pension liabilities by approximately $635,000
 as a result of the contract termination.


WHY WE DID THIS REVIEW

Medicare contractors are required to separately account for their Medicare segment pension plan
assets based on the requirements of their Medicare contracts and Cost Accounting Standards
(CAS). The Centers for Medicare & Medicaid Services (CMS) incorporated this requirement
into the Medicare contracts beginning with fiscal year 1988. In addition, in situations such as
contract terminations, CAS 413 requires contractors to identify excess Medicare pension assets
and liabilities allocated to the Medicare segment. Previous Office of Inspector General reviews
found that Medicare contractors did not always correctly identify and update the segmented
pension assets.

The objectives of this review were to determine whether HealthNow New York, Inc.
(HealthNow), complied with Federal requirements and the Medicare contracts’ pension
segmentation requirements when (1) implementing the prior audit recommendation to increase
the Medicare segment pension assets as of January 1, 2007, (2) updating the Medicare segment’s
pension assets from January 1, 2007, to January 1, 2009, (3) determining Medicare’s share of the
Medicare segment excess pension assets as a result of the curtailment of benefits adjustment as
of January 1, 2008, and (4) determining the Medicare segment excess pension liabilities as a
result of the Medicare segment closing as of January 1, 2009.

BACKGROUND

HealthNow administered Medicare durable medical equipment regional carrier and Part B
operations under cost reimbursement contracts with CMS until the contractual relationships were
terminated on June 30, 2006, and August 31, 2008, respectively. The effective segment closing
date for the Medicare Part B segment was January 1, 2009.

Effective March 31, 2007, HealthNow amended the HealthNow New York, Inc., Retirement
Bonus Plan to discontinue the accrual of benefits for all participants in its retirement plan. In
such cases as the discontinuance of benefit accruals for HealthNow’s retirement plan, CAS
requires that a benefit curtailment adjustment be performed. The effective date for the benefit
curtailment adjustment was January 1, 2008. This report addresses the update of the Medicare
segment pension assets, benefit curtailment adjustment, and segment closing adjustment for
HealthNow’s Medicare Part B segment.

We performed a prior pension segmentation audit at HealthNow (A-07-11-00363, issued
March 7, 2012), which brought the Medicare segment pension assets to January 1, 2007. We



HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                      i
recommended that HealthNow increase its Medicare segment pension assets by $803,777 and
recognize $12,054,951 as the Medicare segment pension assets as of January 1, 2007.

As a result of the benefit curtailment, HealthNow identified $2,345,682 as Medicare’s share of
the Medicare segment excess pension assets as of January 1, 2008. In addition, upon the
termination of its Medicare contracts, HealthNow identified Medicare’s share of Medicare
segment excess pension liabilities to be $2,634,787. The net effect of the benefit curtailment and
Medicare segment closing adjustments was that HealthNow identified Medicare’s share of the
Medicare segment excess pension liabilities to be $289,105 as of January 1, 2009.

WHAT WE FOUND

HealthNow implemented the prior audit recommendation to recognize $12,054,951 as the
Medicare segment pension assets as of January 1, 2007. Regarding our second objective,
HealthNow identified Medicare segment pension assets of $5,626,805 as of January 1, 2009;
however, we determined that the Medicare segment pension assets were $5,929,642. Thus,
HealthNow understated the Medicare segment pension assets by $302,837. HealthNow
understated the Medicare segment pension assets because it did not calculate them in accordance
with Federal requirements and the Medicare contracts’ pension segmentation language when
updating the Medicare segment pension assets from January 1, 2007, to January 1, 2009.

Regarding our third objective—the benefit curtailment adjustment—HealthNow calculated
Medicare’s share of the Medicare segment excess pension assets to be $2,345,682 as of
January 1, 2008; however, we determined that Medicare’s share of the Medicare segment excess
pension assets was $1,864,842 as of that date. HealthNow overstated Medicare’s share of the
Medicare segment excess pension assets by $480,840 because it (a) overstated the Medicare
segment’s excess pension assets and (b) did not calculate the aggregate Medicare percentage in
accordance with the CAS.

Regarding our fourth objective—the Medicare segment closing adjustment—HealthNow
calculated Medicare’s share of the Medicare segment excess pension liabilities to be $2,634,787
as of January 1, 2009; however, we determined that Medicare’s share of the Medicare segment
excess pension liabilities was $2,789,360 as of that date. HealthNow understated Medicare’s
share of the Medicare segment excess pension liabilities by $154,573 because it (a) understated
the Medicare segment’s excess pension liabilities and (b) did not calculate the aggregate
Medicare percentage in accordance with the CAS.

The net effect of the benefit curtailment and Medicare segment closing adjustments was that
HealthNow identified Medicare’s share of Medicare segment excess pension liabilities of
$289,105; however, we determined that the net effect of both adjustments was $924,518. The
difference, $635,413, constituted liabilities that HealthNow did not include in its Medicare
segment closing adjustment. HealthNow understated Medicare’s share of the Medicare segment
excess pension liabilities by $635,413, primarily because it used incorrect Medicare segment
pension liabilities in its calculations of both the benefit curtailment and Medicare segment
closing adjustments.



HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                    ii
WHAT WE RECOMMEND

We recommend that HealthNow:

    •   increase Medicare segment pension assets as of January 1, 2009, by $302,837 and
        recognize $5,929,642 as the Medicare segment pension assets, and

    •   increase Medicare’s share of the Medicare segment excess pension liabilities by $635,413
        and recognize $924,518 as Medicare’s share of the Medicare segment excess pension
        liabilities as of January 1, 2009, as a result of the net effect of the curtailment of benefits
        and the Medicare segment closing adjustments.

AUDITEE COMMENTS

In written comments on our draft report, HealthNow agreed with our recommendations and
stated that it would net our recommendations with other amounts due to and from the Federal
Government during its global settlement of outstanding audits.




HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                       iii
                                                    TABLE OF CONTENTS


INTRODUCTION ................................................................................................................... 1

           Why We Did This Review ........................................................................................... 1

           Objectives .................................................................................................................... 1

           Background .................................................................................................................. 1

           How We Conducted This Review................................................................................ 2

FINDINGS ............................................................................................................................... 2

           Prior Audit Recommendation ...................................................................................... 4

           Update of Medicare Segment Pension Assets ............................................................. 4
                 Benefit Payments Understated ......................................................................... 4
                 Earnings, Net of Expenses Understated ........................................................... 4

           Medicare Segment Curtailment of Benefits Adjustment ............................................. 5
                 Medicare Segment Excess Pension Assets as of January 1, 2008 ................... 5
                 Medicare’s Share of the Medicare Segment Excess Pension Assets ............... 5

           Medicare Segment Closing Adjustment ...................................................................... 6
                 Medicare Segment Excess Pension Liabilities as of January 1, 2009 ............. 6
                 Medicare’s Share of the Medicare Segment Excess Pension Liabilities ......... 6

           Net Effect of Benefit Curtailment and Medicare
              Segment Closing Adjustments ............................................................................... 7

RECOMMENDATIONS ......................................................................................................... 7

AUDITEE COMMENTS......................................................................................................... 8

OTHER MATTER ................................................................................................................... 8

APPENDIXES

    A: Audit Scope and Methodology .................................................................................... 9

    B: Statement of Market Value of Pension Assets
         for HealthNow New York, Inc.,
         for the Period January 1, 2007, to January 1, 2009................................................... 11



HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                                                                 iv
   C: Federal Requirements Related to Pension
        Segmentation and Segment Closing Adjustment...................................................... 13

   D: Calculation of Medicare Part B Aggregate Percentage ............................................... 16

   E: Auditee Comments ....................................................................................................... 17




HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                                                      v
                                            INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are required to separately account for their Medicare segment pension plan
assets based on the requirements of their Medicare contracts and Cost Accounting Standards
(CAS). The Centers for Medicare & Medicaid Services (CMS) incorporated this requirement
into the Medicare contracts beginning with fiscal year 1988. In addition, in situations such as
contract terminations, CAS 413 requires contractors to identify excess Medicare pension assets
and liabilities allocated to the Medicare segment. Previous Office of Inspector General reviews
found that Medicare contractors did not always correctly identify and update the segmented
pension assets.

OBJECTIVES

Our objectives were to determine whether HealthNow New York, Inc. (HealthNow), complied
with Federal requirements and the Medicare contracts’ pension segmentation requirements when
(1) implementing the prior audit recommendation to increase the Medicare segment pension
assets as of January 1, 2007, (2) updating the Medicare segment’s pension assets from January 1,
2007, to January 1, 2009, (3) determining Medicare’s share of the Medicare segment excess
pension assets as a result of the curtailment of benefits adjustment as of January 1, 2008, and
(4) determining the Medicare segment excess pension liabilities as a result of the Medicare
segment closing as of January 1, 2009.

BACKGROUND

HealthNow administered Medicare durable medical equipment regional carrier (DMERC) and
Part B operations under cost reimbursement contracts with CMS until the contractual
relationships terminated on June 30, 2006, and August 31, 2008, respectively. 1 The effective
segment closing date for the Medicare Part B segment was January 1, 2009.

Effective March 31, 2007, HealthNow amended the HealthNow New York, Inc., Retirement
Bonus Plan to discontinue the accrual of benefits for all participants in its retirement plan. In
such cases as the discontinuance of benefit accruals for HealthNow’s retirement plan, CAS
requires that a benefit curtailment adjustment be performed. The effective date for the benefit
curtailment adjustment was January 1, 2008. This report addresses the update of the Medicare
segment pension assets, benefit curtailment adjustment, and segment closing adjustment for
HealthNow’s Medicare Part B segment.

We performed a prior pension segmentation audit at HealthNow (A-07-11-00363, issued
March 7, 2012), which brought the Medicare segment pension assets to January 1, 2007. We

1
  The DMERC contractual relationship was terminated on June 30, 2006. The effective closing date for the DMERC
Medicare segment was January 1, 2007. We reviewed the DMERC segment closing in a separate audit
(A-07-11-00366, issued March 12, 2012) of HealthNow. Unless otherwise noted, all subsequent references to
Medicare segment pension assets, benefit curtailment, and segment closing adjustments in the body of this report
relate to the Medicare Part B segment.

HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                                 1
recommended that HealthNow increase its Medicare segment pension assets by $803,777 and
recognize $12,054,951 as the Medicare segment pension assets as of January 1, 2007.

As a result of the benefit curtailment, HealthNow identified $2,345,682 as Medicare’s share of
the Medicare segment excess pension assets as of January 1, 2008. In addition, upon the
termination of its Medicare contracts, HealthNow identified Medicare’s share of Medicare
segment excess pension liabilities to be $2,634,787. The net effect of the benefit curtailment and
Medicare segment closing adjustments was that HealthNow identified Medicare’s share of the
Medicare segment excess pension liabilities to be $289,105 as of January 1, 2009.

HOW WE CONDUCTED THIS REVIEW

We reviewed HealthNow’s implementation of the prior audit recommendation; identification of
its Medicare segment; update of Medicare segment assets from January 1, 2007, to January 1,
2009; the Medicare segment benefit curtailment adjustment as of January 1, 2008; and the
Medicare segment’s closing adjustment as of January 1, 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                              FINDINGS

HealthNow implemented the prior audit recommendation to recognize $12,054,951 as the
Medicare segment pension assets as of January 1, 2007. Regarding our second objective,
HealthNow identified Medicare segment pension assets of $5,626,805 as of January 1, 2009;
however, we determined that the Medicare segment pension assets were $5,929,642. Thus,
HealthNow understated the Medicare segment pension assets by $302,837. HealthNow
understated the Medicare segment pension assets because it did not calculate them in accordance
with Federal requirements and the Medicare contracts’ pension segmentation language when
updating the Medicare segment pension assets from January 1, 2007, to January 1, 2009.

Appendix B presents details of the Medicare segment’s pension assets from January 1, 2007, to
January 1, 2009, as determined during our audit. Table 1 on the following page summarizes the
audit adjustments required to update Medicare segment pension assets in accordance with
Federal requirements.




HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                   2
                     Table 1: Summary of Audit Adjustments
                                               Per         Per
                                              Audit     HealthNow                      Difference
Prior Audit Recommendation                 $12,054,951 $12,054,951                             $0

Update of Medicare Segment Assets
  Contributions and Prepayment Credits                               0             0            0
  Benefit Payments                                         (2,924,955)   (2,884,195)     (40,760)
  Net Transfers Out                                                  0             0            0
  Earnings, Net of Expenses                                (1,027,132)     (969,956)     (57,176)

   Curtailment of Benefits Adjustment                      (2,173,222)   (2,573,995)      400,773

Understatement of Medicare Segment Assets                                                $302,837
as of January 1, 2009

Regarding our third objective—the benefit curtailment adjustment—HealthNow calculated
Medicare’s share of the Medicare segment excess pension assets to be $2,345,682 as of
January 1, 2008; however, we determined that Medicare’s share of the Medicare segment excess
pension assets was $1,864,842 as of that date. The difference, $480,840, constituted unallowable
Medicare segment pension assets that HealthNow included in its benefit curtailment adjustment.
HealthNow overstated Medicare’s share of the Medicare segment excess pension assets by
$480,840 because it (a) overstated the Medicare segment’s excess pension assets and (b) did not
calculate the aggregate Medicare percentage in accordance with the CAS.

Regarding our fourth objective—the Medicare segment closing adjustment—HealthNow
calculated Medicare’s share of the Medicare segment excess pension liabilities to be $2,634,787
as of January 1, 2009; however, we determined that Medicare’s share of the Medicare segment
excess pension liabilities was $2,789,360 as of that date. The difference, $154,573, constituted
allowable Medicare segment pension that HealthNow did not include in its closing adjustment.
HealthNow understated Medicare’s share of the Medicare segment excess pension liabilities by
$154,573 because it (a) understated the Medicare segment’s excess pension liabilities and (b) did
not calculate the aggregate Medicare percentage in accordance with the CAS.

The net effect of the benefit curtailment and Medicare segment closing adjustments was that
HealthNow identified Medicare’s share of Medicare segment excess pension liabilities of
$289,105; however, we determined that the net effect of both adjustments was $924,518. The
difference, $635,413, constituted liabilities that HealthNow did not include in its Medicare
segment closing adjustment. HealthNow understated Medicare’s share of the Medicare segment
excess pension liabilities by $635,413, primarily because it used incorrect Medicare segment
pension liabilities in its calculations of both the benefit curtailment and Medicare segment
closing adjustments.


HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                  3
PRIOR AUDIT RECOMMENDATION

HealthNow implemented the prior audit recommendation (A-07-11-00363), which recommended
that HealthNow increase its Medicare segment pension assets by $803,777 and, as a result,
recognize $12,054,951 as the Medicare segment pension assets as of January 1, 2007.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

The Medicare contracts require Medicare contractors to update the Medicare segment pension
assets yearly in accordance with the CAS. The CAS requires that the assets base be adjusted by
contributions, permitted unfunded accruals, income, benefit payments, and expenses.

For details on the Federal requirements and the relevant language of the Medicare contracts, see
Appendix C.

The following are our findings regarding the update of the Medicare segment pension assets
from January 1, 2007, to January 1, 2009.

Benefit Payments Understated

HealthNow understated benefit payments by $40,760 because it did not correctly identify some
Medicare segment participants’ benefit payments during the audit period. Table 2 below shows
the differences between the Medicare segment benefit payments proposed by HealthNow and the
benefit payments that we determined during our review.

                                  Table 2: Benefit Payments
                               Per Audit Per HealthNow Difference
                         2007   1,402,327        1,346,292    56,035
                         2008   1,522,628        1,537,903  (15,275)
                         Total $2,924,955      $2,884,195    $40,760

Earnings, Net of Expenses Understated

HealthNow understated investment earnings, less administrative expenses, by $57,176 for the
Medicare segment, primarily because it incorrectly calculated the weighted average value
(WAV) of assets in its calculation of earnings, net of expenses, as required by the CAS. In
addition, HealthNow used incorrect benefit payments to develop the Medicare segment pension
asset base. In our audited update, we allocated earnings, net of expenses based on the applicable
CAS requirements. Table 3 on the following page shows the differences between HealthNow’s
proposed earnings, net of expenses and the amounts that we calculated during our review. For
details on applicable Federal requirements, see Appendix C.




HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                     4
                              Table 3: Earnings, Net of Expenses
                               Per Audit Per HealthNow Difference
                        2007     1,062,621        1,065,191      (2,570)
                        2008   (2,089,753)      (2,035,147)    (54,606)
                        Total ($1,027,132)       ($969,956) ($57,176)

MEDICARE SEGMENT CURTAILMENT OF BENEFITS ADJUSTMENT

Medicare Segment Excess Pension Assets as of January 1, 2008

CAS 413 (Appendix C) requires HealthNow to compute an adjustment as a result of the
curtailment of benefits. HealthNow identified $2,573,995 in Medicare segment excess pension
assets as of January 1, 2008. However, we calculated the Medicare segment excess pension
assets to be $2,173,222 as of that date. (It is necessary to calculate the pension assets and
liabilities as well as any adjustments for the Medicare segment before calculating Medicare’s
share.) Thus, HealthNow overstated the excess pension assets by $400,773. The overstatement
occurred because HealthNow (a) understated the Medicare segment liabilities as of January 1,
2008, and (b) overstated the Medicare segment’s market value of pension assets as of January 1,
2008. The development of excess assets was used to identify Medicare’s share of the Medicare
segment’s excess pension assets.

Medicare’s Share of the Medicare Segment Excess Pension Assets

HealthNow calculated the aggregate Medicare percentage (that is, the percentage that reflects
Medicare’s share of the Medicare segment excess pension assets) as 91.13 percent. We
calculated the aggregate Medicare percentage to be 85.81 percent (see Appendix D) using the
Medicare segment pension costs developed during the prior pension costs claimed
(A-07-11-00364, issued March 7, 2012) and current pension costs claimed (A-07-13-00426)
audits as required by the CAS. Table 4 on the following page shows our calculations of
Medicare’s share of the Medicare segment excess pension assets. For details on the Federal
requirements regarding the aggregate Medicare percentage, see Appendix C.

HealthNow calculated $2,345,682 as Medicare’s share of the excess pension assets as of
January 1, 2008; however, we determined that Medicare’s share of the excess pension assets was
$1,864,842 as of that date. HealthNow overstated Medicare’s share of the Medicare segment
excess pension assets by $480,840 because it (a) overstated the Medicare segment’s excess
pension assets (as discussed above) and (b) did not calculate the aggregate Medicare percentage
in accordance with the CAS.




HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                    5
                            Table 4: Benefit Curtailment Adjustment
                            Excess Medicare         Aggregate        Excess Assets
                                Segment             Medicare         Attributable to
                               Assets (A)        Percentage (B)     Medicare (A x B)
    Per Audit                      $2,173,222              85.81%           $1,864,842
    Per HealthNow                   2,573,995              91.13%            2,345,682
       Difference                                                           ($480,840)

MEDICARE SEGMENT CLOSING ADJUSTMENT

Medicare Segment Excess Pension Liabilities as of January 1, 2009

CAS 413 (Appendix C) requires HealthNow to compute a Medicare segment closing adjustment
as a result of the termination of its Medicare contract. HealthNow identified $2,891,240 in
Medicare segment excess pension liabilities as of January 1, 2009. However, we calculated the
Medicare excess pension liabilities to be $3,250,623 as of that date. (It is necessary to calculate
the pension assets and liabilities as well as any adjustments for the Medicare segment before
calculating Medicare’s share.) Therefore, HealthNow understated the excess pension liabilities
by $359,383. The understatement occurred primarily because HealthNow understated the final
Medicare segment liabilities as of January 1, 2009. The development of excess liabilities was
used to identify Medicare’s share of the Medicare segment’s excess pension liabilities.

Medicare’s Share of the Medicare Segment Excess Pension Liabilities

HealthNow calculated the aggregate Medicare percentage (that is, the percentage that reflects
Medicare’s share of the Medicare segment excess pension assets) as 91.13 percent. We
calculated the aggregate Medicare percentage to be 85.81 percent (see Appendix D) using the
Medicare segment pension costs developed during the prior pension costs claimed
(A-07-11-00364) and current pension costs claimed (A-07-13-00426) audits as required by the
CAS. Table 5 on the following page shows our calculations of Medicare’s share of the Medicare
segment excess pension liabilities. For details on the Federal requirements regarding the
aggregate Medicare percentage, see Appendix C.

HealthNow calculated $2,634,787 as Medicare’s share of the Medicare segment excess pension
liabilities as of January 1, 2009; however, we determined that Medicare’s share of the Medicare
segment excess pension liabilities was $2,789,360 as of that date. HealthNow understated
Medicare’s share of the Medicare segment excess pension liabilities by $154,573 because it
(a) understated the Medicare segment’s excess pension liabilities (as discussed above) and
(b) did not calculate the aggregate Medicare percentage in accordance with the CAS.




HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                    6
                 Table 5: Part B Medicare Segment Closing Adjustment
                         Excess Medicare       Aggregate         Excess Liabilities
                            Segment            Medicare           Attributable to
                          Liabilities (A)    Percentage (B)      Medicare (A x B)
  Per Audit                     $3,250,623             85.81%            $2,789,360
  Per HealthNow                  2,891,240             91.13%             2,634,787
       Difference                                                          $154,573

NET EFFECT OF BENEFIT CURTAILMENT AND
MEDICARE SEGMENT CLOSING ADJUSTMENTS

The net effect of the benefit curtailment and Medicare segment closing adjustments was that
HealthNow identified Medicare’s share of the Medicare segment excess pension liabilities to be
$289,105; however, we determined that the net effect of both adjustments—that is, Medicare’s
share of the Medicare segment excess pension liabilities—was $924,518. The difference,
$635,413, constituted liabilities that HealthNow did not include in its Medicare segment closing
adjustment. HealthNow understated Medicare’s share of the Medicare segment excess pension
liabilities by $635,413 as of January 1, 2009. The understatement occurred primarily because
HealthNow used incorrect Medicare segment pension liabilities in its calculations of both the
benefit curtailment and Medicare segment closing adjustments. Table 6 below compares
HealthNow’s proposed curtailment of benefits and segment closing adjustments and our
calculations as determined during our review.

    Table 6: Net Effect of the Benefit Curtailment and Segment Closing Adjustments
                                              Per Audit   Per HealthNow     Difference
Benefit Curtailment Adjustment—                $1,864,842       $2,345,682   ($480,840)
Medicare’s Share of Medicare Segment
Excess Pension Assets at January 1, 2008
Medicare Segment Closing Adjustment—          (2,789,360)      (2,634,787)    (154,573)
Medicare’s Share of Medicare Segment
Excess Pension Liabilities at January 1, 2009
  Total                                        ($924,518)       ($289,105)   ($635,413)

                                      RECOMMENDATIONS

We recommend that HealthNow:

    •   increase Medicare segment pension assets as of January 1, 2009, by $302,837 and
        recognize $5,929,642 as the Medicare segment pension assets, and

    •   increase Medicare’s share of the Medicare segment excess pension liabilities by $635,413
        and recognize $924,518 as Medicare’s share of the Medicare segment excess pension
        liabilities as of January 1, 2009, as a result of the net effect of the curtailment of benefits
        and the Medicare segment closing adjustments.



HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                       7
                                        AUDITEE COMMENTS

    In written comments on our draft report, HealthNow agreed with our recommendations and
    stated that it would net our recommendations with other amounts due to and from the
    Federal Government during its global settlement of outstanding audits.

    HealthNow’s comments are included in their entirety as Appendix E.

                                            OTHER MATTER

    We developed the results of this audit based on the identification of January 1, 2009, as the
    Medicare Part B segment closing date. HealthNow’s Medicare Part B contract with CMS
    terminated on August 31, 2008. Therefore, we based our calculations and findings using the
    January 1, 2009, actuarial valuation report, which was the closest actuarial valuation report
    to the contract termination date. In a letter dated January 4, 2010, HealthNow proposed
    January 1, 2009, as the closing date for the Medicare Part B segment and also indicated that
    it was performing subcontract work for another Medicare contractor during the period of
    September 1, 2008, through July 31, 2009.

    During coordination with the CMS Office of the Actuary (OACT) after we had both
    completed our audit work and drafted this report, the CMS OACT voiced concerns over the
    appropriateness of using the closing date of January 1, 2009, for the Medicare Part B
    segment. The CMS OACT noted that asset values were unusually low on January 1, 2009,
    and posited that measuring the segment closing adjustment on that date might result in an
    inequitable calculation.

    Although we based the results of this audit on the identification of January 1, 2009, as the
    Medicare Part B segment closing date, CMS officials may or may not determine this date to
    be inequitable based on the provisions of CAS 413.50(c)(12)(iii). CMS may elect to use a
    later date, such as January 1, 2010, that is acceptable to both HealthNow and CMS. We
    neither agree nor disagree with the use of an alternative date and wish only to bring this
    matter to the attention of both HealthNow and CMS.




HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                     8
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed HealthNow’s implementation of the prior audit recommendation; identification of
its Medicare segment; update of Medicare segment assets from January 1, 2007, to January 1,
2009; the Medicare segment benefit curtailment adjustment as of January 1, 2008; and the
Medicare segment’s closing adjustment as of January 1, 2009.

Achieving our objective did not require us to review HealthNow’s overall internal control
structure. We reviewed controls relating to the identification of the Medicare segment, the
update of the Medicare segment’s assets, and the Medicare segment’s final assets and liabilities
to ensure adherence to the Medicare contracts, CAS 412, and CAS 413.

We conducted our audit work in April 2013.

METHODOLOGY

To accomplish our objectives, we took the following steps:

    •    We reviewed the portions of the Federal Acquisition Regulation, CAS, and the
         Medicare contracts applicable to this audit.

    •    We reviewed the annual actuarial valuation reports prepared by HealthNow’s actuarial
         consulting firms, which included the pension plan’s assets, liabilities, normal costs,
         contributions, benefit payments, investment earnings, and administrative expenses. We
         used this information to calculate the Medicare segment assets.

    •    We obtained and reviewed the pension plan documents and Department of
         Labor/Internal Revenue Service Forms 5500 used in calculating the Medicare segment
         assets.

    •    We interviewed HealthNow staff responsible for identifying the Medicare segment to
         determine whether the segment was properly identified in accordance with the Medicare
         contracts.

    •    We reviewed HealthNow’s accounting records to verify the segment identification and
         benefit payments made to the Medicare segment.

    •    We reviewed the Medicare segment benefit curtailment adjustment prepared by
         HealthNow’s staff and its actuarial consulting firms.

    •    We reviewed the Medicare segment closing adjustment prepared by HealthNow’s staff
         and its actuarial consulting firms.



HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                     9
    •    We reviewed the prior segmentation audit performed at HealthNow (A-07-11-00363) to
         determine the beginning market value of assets.

    •    We provided the CMS OACT with the actuarial information necessary for it to calculate
         the Medicare segment pension assets from January 1, 2007, to January 1, 2009, the
         Medicare segment excess pension assets as of January 1, 2008, and the Medicare
         segment’s excess pension liabilities as of January 1, 2009.

    •    We reviewed the CMS actuaries’ methodology and calculations.

    •    We provided the results of our review to HealthNow officials on July 15, 2013.

We performed this review in conjunction with our audit of HealthNow’s pension costs claimed
for Medicare reimbursement (A-07-13-00426) and used the information obtained during that
audit in this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                10
                 APPENDIX B: STATEMENT OF MARKET VALUE OF PENSION ASSETS
                               FOR HEALTHNOW NEW YORK, INC.
                      FOR THE PERIOD JANUARY 1, 2007, TO JANUARY 1, 2009

                                                                                                     Medicare
                Description                        Total Company        Other Segments               Segment

     Assets January 1, 2007                1/            $95,360,687             $83,305,736          $12,054,951

     Contributions                                                 0                      0                     0
     Other Transactions                                            0                      0                     0
     Earnings                              2/              8,570,743              7,508,122             1,062,621
     Benefit Payments                      3/             (7,569,789)            (6,167,462)           (1,402,327)

     Assets January 1, 2008                             $96,361,641             $84,646,396          $11,715,245

     Contributions                         4/             2,700,000               2,700,000                     0
     Other Transactions                    5/                     0               2,173,222            (2,173,222)
     Earnings                                           (22,565,313)            (20,475,560)           (2,089,753)
     Benefit Payments                                    (5,793,717)             (4,271,089)           (1,522,628)


     Assets January 1, 2009                             $70,702,611             $64,772,969           $5,929,642
     Per HealthNow                         6/            70,702,611              65,075,806            5,626,805
     Asset Variance                        7/                     0                 302,837             (302,837)



ENDNOTES

  1/ We determined the Medicare segment pension assets as of January 1, 2007, based on our prior segmentation
     audit of HealthNow New York, Inc. (A-07-11-00363). The amounts shown for the Other segment represent
     the difference between the Total Company and the Medicare segment. All pension assets are shown at
     market value.

  2/ We obtained net investment earnings from the actuarial valuation reports. We allocated net investment
     earnings based on the ratio of each segments’ WAV of assets to Total Company WAV of assets as required
     by the CAS.

  3/ We based each Medicare segment’s benefit payments on actual payments to Medicare retirees. We obtained
     the benefit payments from documents provided by HealthNow.

  4/ We obtained Total Company contribution amounts from the actuarial valuation reports and Department of
     Labor/Internal Revenue Service Forms 5500. We allocated Total Company contributions to the Medicare
     segment based on the ratio of the Medicare segment funding target divided by the Total Company funding
     target. Contributions in excess of the funding targets were treated as prepayment credits and accounted for in
     the Other segment until needed to fund pension costs in the future.

HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                                  11
  5/ The Other transactions represent the curtailment of benefits adjustment as of January 1, 2008. Effective
     March 31, 2007, HealthNow amended the HealthNow New York, Inc., Retirement Bonus Plan to discontinue
     the accrual of benefits for all participants. In such cases as the discontinuance of benefit accruals for
     HeathNow’s retirement plan, CAS requires that a benefit curtailment adjustment be performed. The
     effective date for the curtailment of benefits was January 1, 2008.

  6/ We obtained total asset amounts from documents prepared by HealthNow’s actuarial consulting firm.

  7/ The asset variance represents the difference between our calculation of Medicare segment pension assets and
     HealthNow’s calculation of the Medicare segment pension assets.




HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                                12
         APPENDIX C: FEDERAL REQUIREMENTS RELATED TO PENSION
            SEGMENTATION AND SEGMENT CLOSING ADJUSTMENT

PENSION SEGMENTATION

Federal Regulations

Federal regulations (CAS 412.50(a)(4)) require that contributions in excess of the pension cost
assigned to the period be recognized as prepayment credits and accumulated at the assumed
valuation interest rate until applied to future period costs. Prepayment credits that have not been
applied to fund pension costs are excluded from the value of assets used to compute pension
costs.

Federal regulations (CAS 413.50(c)(7)) require that the asset base be adjusted by contributions,
permitted unfunded accruals, income, benefit payments, and expenses. For plan years beginning
after March 30, 1995, the CAS requires investment income and expenses to be allocated among
segments based on the ratio of the segment’s WAV of assets to Total Company WAV of assets.

Federal regulations (CAS 413.50(c)(8)) require an adjustment to be made for transfers
(participants who enter or leave the segment) if the transfers materially affect the segment’s ratio
of pension plan assets to actuarial accrued liabilities.

Medicare Contracts

The Medicare contracts identify a Medicare segment as:

        … any organizational component of the contractor, such as a division,
        department, or other similar subdivision, having a significant degree of
        responsibility and accountability for the Medicare contract/agreement, in which:

            1. The majority of the salary dollars is allocated to the Medicare
               agreement/contract; or,

            2. Less than a majority of the salary dollars are charged to the Medicare
               agreement/contract, and these salary dollars represent 40% or more of the
               total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).”




HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                    13
MEDICARE SEGMENT EXCESS PENSION ASSETS AND LIABILITIES

Federal Regulations

Federal regulations (CAS 413.50(c)(12)) state:

        If a segment is closed, if there is a pension plan termination, or if there is a
        curtailment of benefits, the contractor shall determine the difference between the
        actuarial liability for the segment and the market value of the assets allocated to
        the segment, irrespective of whether or not the pension plan is terminated. The
        difference between the market value of the assets and the actuarial accrued
        liability for the segment represents an adjustment of previously-determined
        pension costs.

        (i) The determination of the actuarial accrued liability shall be made using the
        accrued benefit cost method. The actuarial assumptions employed shall be
        consistent with the current and prior long term assumptions used in the
        measurement of pension costs ….

        (ii) … The market value of the assets shall be reduced by the accumulated value
        of prepayment credits, if any. Conversely, the market value of assets shall be
        increased by the current value of any unfunded actuarial liability separately
        identified and maintained in accordance with 9904.412-50(a)(2).

        (iii) The calculation of the difference between the market value of the assets and
        the actuarial accrued liability shall be made as of the date of the event (e.g.,
        contract termination, plan amendment, plant closure) that caused the closing of
        the segment, pension plan termination, or curtailment of benefits. If such a date is
        not readily determinable, or if its use can result in an inequitable calculation, the
        contracting parties shall agree on an appropriate date.

        (iv) Pension plan improvements adopted within 60 months of the date of the event
        which increase the actuarial accrued liability shall be recognized on a prorata
        basis using the number of months the date of adoption preceded the event date.
        Plan improvements mandated by law or collective bargaining agreement are not
        subject to this phase-in.

The methodology for determining the Federal Government’s share of excess pension assets and
liabilities is addressed by CAS 413.50(c)(12)(vi), which states:

        The Government’s share of the adjustment amount determined for a segment shall
        be the product of the adjustment amount and a fraction. The adjustment amount
        shall be reduced for any excise tax imposed upon assets withdrawn from the
        funding agency of a qualified pension plan. The numerator of such fraction shall
        be the sum of the pension plan costs allocated to all contracts and subcontracts
        (including Foreign Military Sales) subject to this Standard during a period of

HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                  14
        years representative of the Government’s participation in the pension plan. The
        denominator of such fraction shall be the total pension costs assigned to cost
        accounting periods during those same years. This amount shall represent an
        adjustment of contract prices or cost allowance as appropriate. The adjustment
        may be recognized by modifying a single contract, several but not all contracts, or
        all contracts, or by use of any other suitable technique. [Emphasis added.]

Medicare Contracts

In the event of a contract termination, the Medicare contracts require contractors to follow the
segment closing provision of the CAS. Furthermore, in situations such as contract terminations,
the Medicare contracts require contractors to identify excess Medicare pension assets and
liabilities in accordance with CAS 413.




HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                     15
      APPENDIX D: CALCULATION OF MEDICARE PART B AGGREGATE PERCENTAGE

                   Medicare Segment              Medicare Segment
                    Pension Costs                 Pension Costs              Total Medicare         Medicare
     Fiscal        Charged to Part B            Charged to DMERC            Segment Pension        Aggregate
     Year          Medicare Contract            Medicare Contract                 Costs            Percentage
       1/               (A) 2/                        (B) 3/                     (c) 4/          ((A+B)/C) 5/

      1994                      634,191                                0            634,191
      1995                      588,401                                0            588,401
      1996                      698,513                                0            698,513
      1997                      523,319                                0            523,319
      1998                      356,196                                0            373,567
      1999                      374,486                                0            460,000
      2000                      384,080                            6,275            471,785
      2001                      230,867                           26,826            318,218
      2002                      314,371                           41,381            489,141
      2003                      259,876                           53,040            458,820
      2004                      329,340                           75,584            596,090
      2005                      293,967                           84,690            520,848
      2006                      323,756                           67,983            471,123
      2007                            0                                0                  0
      2008                            0                                0                  0

      Total                   $5,311,363                         $355,779         $6,604,016            85.81%


ENDNOTES

  1/ The aggregate percentage was based on the audited pension costs developed during the prior pension costs
     claimed (A-07-11-00364 and A-07-11-00367, issued on March 7, 2012, and March 12, 2012, respectively)
     and current pension costs claimed (A-07-13-00426) audits.

  2/ This column identifies the allowable Medicare Part B segment pension costs that relate to the Medicare

  3/ This column identifies the allowable Medicare Part B segment pension costs that relate to the DMERC
     contract.

  4/ This column identifies the total allocable Medicare Part B segment pension costs during the contract

  5/ We calculated the aggregate Medicare percentage by dividing the Medicare Part B segment pension costs
     charged to Medicare by the total Medicare Part B segment pension costs pursuant to CAS 413.




HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                                16
                                      APPENDIX E: AUDITEE COMMENTS




               HealthNoW:St
               257 West Genesee Street • Buffalo. New York 14202



               September 18, 2013

               Mr. Patrick J. Cogley
               Regional Inspector General, Office of Audit Services
               Region VII
               601 East 1ih Street
               Room 0429
               Kansas City, Missouri 64106

               Re:        Report Number: A-07-13-00425

               Dear Mr. Cogley:

               This letter is in response to the U.S. Department of Health & Human Services, Office of
               Inspector General, Office of Audit Services' draft report entitled "HealthNow New York
               Inc. Did Not Claim Same Allowable Medicare Part 8 Pension Costs for the Fiscal Years
               2007 Through 2009". HealthNow New York Inc. (HealthNow) has reviewed the draft
               report in conjunction with our actuaries at Hooker and Holcombe, Inc.

               •     Health Now agrees with the recommendations stated in the draft audit report on
                     page iii.

               We understand there will be a global settlement of all HealthNow's outstanding audits
               and we will net this recommendation with other amounts due to/from the Federal
               Government at that time. We cannot revise the FACP since we are no longer a Part B
               contractor.

               Health Now would like to thank the audit team for their professionalism and recognition
               of the ongoing operation during the audit.




                             1/l-1 I~
                    nr1 M. Gannof
                                         £tf
                If you have any questions, please contact me at 716.887.6922.


                   incer ly,

                                               - -;    I t/}(_

                Exec ve Director CF , Medicare Operation
                MedUS Services, LLC

               cc:        Amy M. Arena
                          Catherine M . Campbell
                          Christopher leardini
                          Carmen L. Snell, Esq.




HealthNow New York, Inc., Pension Segmentation (A-07-13-00425)                                           17
